USAID
OFFICE OF INSPECTOR GENERAL
               Audit of USAID/Russia’s
                 Cashiering Operations




             Audit Report No. B-110-01-002-F

                              January 9, 2001
                         Budapest, Hungary




                                   U.S. Agency for
                        International Development
             U.S. AGENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/BUDAPEST


             January 9, 2001

             MEMORANDUM

             FOR:              USAID/Russia Mission Director, Carol Peasley

             FROM:             Director of Audit Operations, RIG/Budapest, Nathan S. Lokos

             SUBJECT:          Audit of USAID/Russia’s Cashiering Operations (Report No. B-
                               110-01-002-F)


             This memorandum is our report on the subject audit. In finalizing the report, we
             considered your comments on the draft report and have included them in Appendix
             II.

             This report contains one recommendation for your action. Based on information
             provided by the Mission, the controller for USAID/Russia took corrective action for
             the audit recommendation and, therefore, the recommendation is closed upon
             issuance of this report.

             I appreciate the cooperation and courtesy extended to my staff during the audit.




Background   The Department of State, Financial Service Center in Paris, and USAID policies
             and procedures guide the Mission’s cashiering operations. The controller
             supervises the cashier, issues instructions for day-to-day operations, and approves
             exceptional transactions arising from unusual situations.

             The cashier’s duties are principally comprised of: (1) maintaining an imprest fund in
             amounts prescribed by USAID/Washington; (2) making cash disbursements against
             properly authorized documents; (3) accepting payments on behalf of the U.S.
             Government, such as bills for collection; (4) depositing funds collected into U.S.


             Page 1 of 6                                           Audit Report No. B-110-01-002-F
                   Disbursing Office’s dollar account; and (5) maintaining records of cash payments
                   made by the sub-cashier and replenish the sub-cashier funds. The cashier at
                   USAID/Russia is authorized to make cash payments for individual transactions up to
                   $1,000 and under emergency circumstances, cash payments are authorized up to
                   $40,000. Cash payments can be made for: (1) payroll and small purchases; (2) repair
                   of equipment; (3) postal charges; (4) local drayage; (5) taxi fares; (6) utility bills; (7)
                   travel advances; and (8) reimbursement for travel expenses.

                   Mission cashiers are authorized to perform disbursements from their imprest funds
                   and are held personally accountable and responsible for the amount of the funds.
                   Accordingly, cashiers are required to make every effort to ensure and maintain the
                   integrity of their position and to safeguard the imprest funds. As an internal control
                   on the cashier’s operations, Mission controllers are required to perform
                   unannounced cash verifications of the imprest fund on a periodic basis. At the time
                   of our audit, the Mission’s authorized imprest level was $250,000.



Audit Objectives   This audit was performed at the request of the controller for USAID/Russia and was
                   performed in conjunction with our audit of the controls over the Mission Accounting
                   and Control System. The Office of the Regional Inspector General/Budapest
                   performed this audit to review the imprest fund at USAID/Russia and to specifically
                   answer the following audit objective:

                   •   Did USAID/Russia manage its cashiering operations efficiently, economically
                       and in accordance with USAID policies and procedures?

                   Appendix I describes the audit’s scope and methodology.



Audit Findings     Did USAID/Russia manage its cashiering operations efficiently, economically
                   and in accordance with USAID policies and procedures?

                   In our opinion, except for the effects, if any, of the loss of the elements of surprise
                   over our cash count of the imprest fund and the condition described below,
                   USAID/Russia generally managed its cashiering operations efficiently, economically
                   and in accordance with USAID policies and procedures.

                   As part of this management, USAID/Russia provided guidance to its cashiering
                   operations by issuing a Mission Order on cashiers and cash payments. This document
                   incorporated the policies and procedures established by: (1) the Department of State
                   Serviced Post User Manual, (2) USAID Financial Management Bulletin No. 10, and
                   (3) USAID Handbook 19, Chapter 13. In addition, the Mission has implemented
                   controls to safeguard both the cashier’s office and the assets held by the cashier. For
                   example, the cashier is located in a well-protected, controlled-access area within the
                   Mission and the door is kept locked at all times. Moreover, the cashier’s safe is


                   Page 2 of 6                                              Audit Report No. B-110-01-002-F
                           closed when it is not being used. All cash and checks are kept in the cashiers safe and
                           all checks are restrictively endorsed. The combination to the safe is in the custody of
                           the Regional Security Officer at the U.S. Embassy in Moscow, Russia.

                           To supplement the above mentioned controls, USAID/Russia conducts periodic
                           surprise cash counts, at least monthly, and checks the cashier’s records for accuracy
                           and compliance with USAID requirements. Signed copies of these reconciliations are
                           sent to the Financial Service Center in Paris. In the six years the cashier has worked at
                           USAID/Russia, the cashier’s office has never experienced an instance of theft.

                           Although the Mission has taken these positive steps to implement and manage their
                           cashier operations, a weakness in holding old salary payments is mentioned below.

                           Old Unclaimed FSN Salary
                           Payments Are Left With The Cashier

                           During our review, we identified over $12,000 that was being kept in the
                           USAID/Russia cashier safe without adequate accounting or control. This money
                           represented FSN payroll payments—up to five months old—that had never been
                           claimed by the proper recipients. Despite the fact that this money was being
                           maintained in the USAID cashier’s safe, the funds were not counted in the
                           cashier’s available limit nor were they being reflected on the cashier’s
                           reconciliation worksheets.

                           This practice is not consistent with applicable regulations. Volume 4 of the Foreign
                           Affairs Handbooks addresses cashier operations and states that “[c]ashiers are also
                           prohibited from holding any accountable forms…or any other money, checks, or
                           documents that are not a part of the fund accountability.” 1 However, in contrast,
                           the USAID cashier was holding a material amount of money that was not a part of
                           the fund accountability. As a result, the Mission faced a significant risk that up to
                           $12,031 could be diverted without any indication of such diversion being raised by
                           its system of internal controls.

                           When asked why these funds were being held, but not accounted for, Mission staff
                           explained that some FSN employees leave their pay with the cashier because of the
                           instability of the Russian banking system. Another reason offered by Mission staff
                           was that the employees simply did not want to carry any sizable amount of funds on
                           their person. Regardless of the reasons, the fact remains that material amounts of
                           money held by the cashier are not appearing in the accounting controls designed to
                           safeguard the cashier operation. As a result, we are making the following
                           recommendation.




1
    Volume 4, Section 3 H-393.4-3, of the Foreign Affairs Handbook (4 FAH-3 H-393.4-3)


                           Page 3 of 6                                                   Audit Report No. B-110-01-002-F
                         Recommendation No. 1: We recommend that the Mission Director
                         at USAID/Russia formulate and institute a policy requiring
                         employees to sign for and pick up their salary payments from the
                         cashier within one week.




Management       USAID/Russia concurred with the audit finding and the recommendation. In
Comments and     response to Recommendation No. 1, the two employees in question picked up the
Our Evaluation   old salary payments that the cashier had held for them. Additionally,
                 USAID/Russia issued instructions to employees at the Mission that the cashier will
                 not hold salary payments for employees for more than two days beyond payday
                 unless an employee is on sick leave, annual leave or temporary duty travel. Finally,
                 USAID/Russia instructed the cashier to inform the American supervisor if an
                 employee has not picked up a salary payment within the two days following
                 payday. Based on the action taken, a management decision and final action has
                 been reached on Recommendation No. 1.

                 The complete text of management comments is included as Appendix II.




                 Page 4 of 6                                         Audit Report No. B-110-01-002-F
                                                                                      Appendix I




Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an audit, in
              accordance with generally accepted government auditing standards, to determine if
              USAID/Russia managed its cashiering operations efficiently, economically and in
              accordance with USAID policies and procedures. The audit of the $250,000
              imprest fund was conducted at the Mission’s office in Moscow, Russia in
              conjunction with the audit of the Mission Accounting and Control System from
              October 4, 2000, through October 27, 2000.

              Methodology

              The audit objective was to determine if USAID/Russia managed its cashiering
              operations efficiently, economically and in accordance with USAID policies and
              procedures. To accomplish our audit objective we (1) reviewed the physical
              security of the cashier’s office, (2) interviewed appropriate Mission employees, (3)
              performed a cash count of the imprest fund, and (4) evaluated the controls relating
              to safeguarding cash and other valuables in the cashier's vault. Because of the
              liquidity of cash and its relatively high risk of loss, our materiality threshold was
              set at a relatively low level. Based on our judgement, we considered a discrepancy
              of $50 a reportable condition. Because the cashier was aware that a cash count
              would take place, our count of the imprest fund was not a surprise.




              Page 5 of 6                                          Audit Report No. B-110-01-002-F
Management
Comments

      United States Agency for International Development

                       Local: USAID/Moscow                U.S. American Embassy/Moscow
                       Address: 19123 Novinsky Bulvar     Mailing PSC 77 USAID
                       Moscow 121099, Russia              Address: APO AE 09721
                       Telephone: 7-095-928 5000 x5948    Fax. 7-095-960 2141 / 42




                                             Memorandum
      To:      Nathan S. Lokos, Director of Audit Operations , RIG/Budapest

      From:    George Deikun, Acting Mission Director

      Subject: Response to Audit of USAID/Russia Cashier Operations Audit Report No. B-011-01-
      00X-P

      Date: 22 December 2000


      This memorandum is in response to your office’s single recommendation in the subject audit
      report. The audit report contained the recommendation that the Mission Director at
      USAID/Russia formulate and institute a policy requiring employees to sign for and pick-up their
      salary from the cashier within one week.


      The following policy and steps were implemented immediately following the visit by your staff.
      First, all old salary payments that the cashier had held were picked up by the two employees in
      question. Second, the cashier has been instructed not to hold salary payments for employees for
      more than two days beyond payday unless an employee is on sick leave, annual leave, or on
      temporary duty travel. Additionally, an e-mail message was sent to all employees in the Mission
      stating that the policy that the cashier is not authorized to hold an employee’s salary at the cashier
      office for more than two days unless an employee is on sick leave, annual leave, or on temporary
      duty travel. Third, the cashier has been given explicit instructions to report to her American
      supervisor if an employee has not picked up his/her salary in the two days following payday and
      is not on sick leave, annual leave, or on temporary duty travel.
